                                                                         NATIONAL SCIENCE FOUNDATION
                                                                                 4201 WILSON BOULEVARD
                                                                                ARLINGTON, VIRGINIA 22230




                                        OFFICE OF
                                    INSPECTORGENERAL



                               MEMORANDUM

                               Date:                March 25, 1997
~   ~   -   -.   - - ~ - --- - --                                        ..-.                        .            ._.    .....   .

                               To:                  I96060033




                                                                -.   ~




                               -Via:            p      e    c        i          a   l ~~ent-in-rn

                               Re:                  Resolution of Case


                               O n ~ h n e19, 1996, seven Dell computer units were reported to our office as being stolen from
                               NSF's Directorate for Computer and Information Science and Engineering (CISE). After
                               surveying the crime scene and preserving evidence, we contacted the Federal Protective
                               Service to assist with our investigation.

                       .       Subsequent investigation showed that several eyewitnesses saw a suspect in or near CISE's
                               offices during the time of the theft. However, the suspect descriptions provided by the
                               witnesses did not match that of any known thieves and, to date, fingerprint analysis has not
                               identified any suspects. Analysis of surveillance camera footage also revealed no suspects.

                               Due to the lack of evidence to identify any suspects in this matter, further use of NSF OIG
                               investigation resources is not warranted at this time. This case is closed.
